HHS/OIG-Audit: "Inpatient Hemodialysis Procedure Services Provided
by Nephrology Associates Medical Group, Inc.,"(A-09-01-00080)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Inpatient Hemodialysis Procedure Services Provided by Nephrology Associates
Medical Group, Inc.," (A-09-01-00080)
November 14, 2001
Complete
Text of Report is available in PDF format (681 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report presents the
results of our review of inpatient hemodialysis procedure services provided
to Medicare beneficiaries by Nephrology Associates Medical Group, Inc. (Group)
in Calendar Years 1998 and 1999.  Based on a review of a statistical
sample of Medicare claims, we are 95 percent confident that the Group received
a total overpayment of at least $100,788.  We recommended that the Group
refund the overpayment to the Medicare program.  We also recommended
that the Group develop policies and procedures to ensure that the Medicare
requirements for billing hemodialysis procedure services were met before
billing Medicare for such services.